OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/UKRAINE’S
DISPLACED CHILDREN AND
ORPHANS FUND ACTIVITIES
AUDIT REPORT NO. 9-000-09-002-P
November 20, 2008




Washington, DC
Office of Inspector General


November 20, 2008

MEMORANDUM

TO:            USAID/Ukraine, Director, Janina Jaruzelski

FROM:          IG/A/PA, Director, Steven H. Bernstein /s/

SUBJECT:       Audit of USAID/Ukraine’s Displaced Children and Orphans Fund Activities
               (Report Number 9-000-09-002-P)

This memorandum transmits the Office of Inspector General’s final report on the subject
audit. In finalizing the report, we carefully considered your comments on the draft report
and included them in their entirety as appendix II. Furthermore, based on the additional
supporting documentation you provided, we have made adjustments to the report
language.

The report includes one recommendation for your action. Based on the information
provided in your response to the draft report, we conclude that a management decision
has been reached for this recommendation. Determination of final action will be made
by the Audit Performance and Compliance Division (M/CFO/APC) upon completion of
the planned actions.

I sincerely appreciate the cooperation and courtesies extended to my staff during this
audit.
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

     Audit Objective ............................................................................................................ 3

Audit Findings ................................................................................................................. 4

     Families for Children Program Completed
     Most Planned Activities ............................................................................................... 4

     USAID/Ukraine Should Monitor Program Outputs and
     Results More Closely .................................................................................................. 7

Evaluation of Management Comments ....................................................................... 10

Appendix I – Scope and Methodology ........................................................................ 11

Appendix II – Management Comments ....................................................................... 13
SUMMARY OF RESULTS
The goal of the Families for Children program is to develop sustainable and replicable
services for children who otherwise would be institutionalized or on the street. The
program seeks to build a continuum of services in areas such as family preservation,
domestic adoption, foster care, and family-type foster homes. As of fiscal year (FY)
2007, the program had a total life-of-project funding level of approximately $3.2 million.
The objective of this audit was to determine whether USAID’s Displaced Children and
Orphans Fund activities in Ukraine are achieving their intended results and to assess the
program’s impact (see page 3).

From October 2006 through June 2008, USAID/Ukraine’s Families for Children program
completed most of the activities included in its work plans. These activities focused on
four major areas: community mobilization and capacity building, institutional reform,
national-level technical assistance, and a grant program. During FY 2007, the program
successfully completed 29 of 32 planned activities; during the first three quarters of FY
2008, the program successfully completed 37 of 40 planned activities (see pages 4–7).

Although the program completed most of the activities in the work plans, changes in
project emphasis combined with monitoring and reporting weaknesses made it difficult
for USAID/Ukraine to assess the program’s progress or overall impact. Although
Agency, bureau, and Federal guidance emphasize the need for missions to compare
planned results with actual achievements, USAID/Ukraine did not collect and analyze
such performance data for the Families for Children program. The implementing
partner’s reporting reflected outputs achieved during each implementation period, but
neither the partner nor USAID had established output targets to allow an assessment of
progress toward specific goals, such as the number of children served by the program.
Furthermore, although the implementing partner had agreed to collect baseline data on
broad outcome measures (such as changed public attitudes toward foster care), which
would have facilitated an assessment of the program’s overall impact, the partner never
collected such data, and USAID/Ukraine never requested the data. Finally, during
implementation, the partner did not pursue or achieve all of the cooperative agreement’s
specific targets and objectives. Changes to the objectives were not discussed with the
USAID cognizant technical officer, and USAID/Ukraine did not develop new objectives
against which program progress could be measured. As a result, USAID/Ukraine could
not adequately assess the progress toward cooperative agreement targets and
objectives, the achievement of planned outputs for each year, or the overall program
impact (see pages 7–9).

These monitoring problems occurred, in part, because USAID/Ukraine changed the
cognizant technical officer four times during the life of the project; this lack of continuity
weakened mission monitoring efforts. To some extent, however, the monitoring
problems also reflect a lack of management oversight and emphasis on program
monitoring. To correct this situation, this audit recommends that USAID/Ukraine develop
a comprehensive mission order on activity monitoring that requires the periodic
evaluation of planned and actual progress toward the goals, objectives, and stated
outputs of grants and contracts (see page 9).




                                                                                            1
In comments to the draft report, USAID/Ukraine officials concurred with the audit
recommendation and agreed to develop within 90 days a mission order on program
monitoring that more accurately reflects current reporting requirements, policies and
regulatory changes. The proposed actions represent a management decision on the
recommendation. Furthermore, in response to the additional documentation provided by
USAID/Ukraine, the report language was adjusted to better represent mission monitoring
activities (see page 10).




                                                                                    2
BACKGROUND
Like many countries that were formerly part of the Soviet Union, Ukraine underwent
rapid social, economic, and political changes that brought about a serious crisis in terms
of the increasing number of children living on the streets or in institutions. The
abandonment of children was acceptable and even preferable for families struggling with
poverty, substance abuse, physical or psychological health conditions, domestic
violence, or unemployment. For children who were abused at home, the only child
protection service available was removal from the home and placement in institutions.
These institutions readily accepted children, and few social services existed at the
community level to help a family continue parenting their child. Efforts to reform
Ukraine’s institutional system have been moderately successful, but alternative systems
to assist children at risk have been slow to develop.

USAID’s Displaced Children and Orphans Fund finances projects that help families and
communities improve the well-being of vulnerable children. In 2004, the Fund agreed to
provide financing for the Families for Children program to be implemented through a
cooperative agreement managed by USAID/Ukraine. As of fiscal year (FY) 2007, the
program had expended $2.4 million out of a total life-of-project funding level of
approximately $3.2 million.

The goal of the Families for Children program is to develop sustainable and replicable
family-based services for children who otherwise would be institutionalized or on the
streets. The program seeks to build a continuum of services in areas such as family
preservation, domestic adoption, and foster care/family-type homes by:

    •   Improving the knowledge, skills, and competencies of child welfare
        service providers and beneficiaries.

    •   Increasing public awareness and community involvement in child welfare
        issues.

    •   Strengthening the commitment of the government and nongovernmental
        organizations to develop family preservation, adoption, and foster
        care/family-type homes.

    •   Initiating a shift in placement decisions in the best interest of the child.

AUDIT OBJECTIVE
This audit was included in the Office of Inspector General's FY 2008 annual plan and
was conducted to answer the following question:

   Are USAID/Ukraine’s Displaced Children and Orphans Fund activities achieving
    planned results, and what has been the impact?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                        3
AUDIT FINDINGS
From October 2006 through June 2008, USAID/Ukraine’s Families for Children program
completed most of the planned activities in its work plans. These activities supported
the overall goal of developing sustainable and replicable family-care models of service
for children who would otherwise be institutionalized or on the street. However, because
of changes to the program during implementation, the program did not achieve the
specific targets and objectives stated in the cooperative agreement. Furthermore,
because of monitoring weaknesses, USAID/Ukraine was unable to fully assess annual
progress and the program’s overall impact at the local and national levels.

Families for Children Program
Completed Most Planned Activities
The Families for Children program completed more than 90 percent of its planned
activities as specified in the work plans for fiscal years (FYs) 2007 and 2008. During
FY 2007, the program successfully completed 29 of 32 planned activities; and during the
first three quarters of FY 2008, the program successfully completed 37 of 40 planned
activities. Table 1 shows details regarding the completion of work plan activities:

Table 1. Status of Work Plan Activities, FYs 2007 and 2008 (as of June 30, 2008)

                                                                       Total        Percentage
                             FY 2007              FY 2008              Number of    of Total
                             Work Plan      %     Work Plan      %     Activities   Activities
Completed as Planned             24        75         36         90        60           83
Substantially                    5         16         1          2.5        6            8
           1
Not Completed                    3          9         1          2.5        4            6
Pending                          0          0         2          5          2            3
                   TOTAL         32        100        40        100        72           100

The activities specified in the work plans for FYs 2007 and 2008 focused on four major
program areas: community mobilization and capacity building, institutional reform,
national-level technical assistance, and a grant program. Notable achievements in these
four program areas are discussed below.

Community Mobilization and Capacity Building:                The program completed or
substantially completed 23 of 25 planned activities, including the establishment of
community-based relief nurseries designed to prevent child abuse and neglect. Relief
nurseries target at-risk children 6 years old or younger and provide early-childhood
therapy combined with parent education and regular home visits. To assist in
development, the program brought technical experts from the United States to provide
skills training for the administrators and service providers of its nine relief nurseries. As
of March 2008, the nine nurseries had served a total of 128 families and 184 children.


1
 “Substantially completed” activities were either completed later than planned or were subject to
minor scope adjustments during implementation.


                                                                                               4
                                                          Photograph of a social worker with
                                                          a child at a relief nursery in
                                                          Gorlovka, Ukraine. Photo taken by
                                                          an OIG auditor on June 26, 2008.


During FY 2007, as part of its efforts to replicate activities in new regions, the Families
for Children program initiated work in two new regions: Odessa in southern Ukraine and
Donetsk in eastern Ukraine.         The implementing partner conducted community
workshops on family care and set up study tours to the United States to provide
administrators and counselors from these new regions with hands-on training in the
development of child welfare programs. The program also established local community
councils composed of service providers and decision makers to gain the community
support crucial to implementing family-based care activities.

However, although the program expanded in two regions during FY 2007, it did not
expand as planned into a third region in the western city of Ternopil. After completing a
preliminary assessment, the implementing partner found that most at-risk children in
Ukraine’s western region were not put into orphanages but instead were placed with
relatives. As a result, the partner scaled back the planned expansion from three regions
to two.

The program also planned for several senior leaders from two of Ukraine’s child-welfare
and adoptive service government agencies to attend an international child-welfare
conference in late 2007. However, these leaders were unable to attend because of
schedule conflicts; therefore, the activity was not completed as planned.

Institutional Reform: In recent years, the Ukrainian government has begun to reform
its policies toward institutionalizing children. The Families for Children program
responded to these changes by introducing deinstitutionalization activities into its work
plans. During FYs 2007 and 2008, the program completed all five planned activities,
including providing local administrators and service providers with technical resources
such as a best practice guide on the 10 key steps to deinstitutionalization. The
implementer also conducted individual child assessments and developed permanency
plans for children at five different institutions. As a result, the implementing partner
successfully placed 44 children into family care (e.g., reintegration with birth families,
placement into a relative’s home, domestic adoption, or foster care).




                                                                                          5
National-Level Technical Assistance: The program completed or substantially
completed 14 of 16 technical assistance activities, including a nationwide adoption
survey in conjunction with the Ukrainian government. However, the partner’s planned
effort to develop a new child welfare curriculum for Ukrainian universities proved to be
too ambitious; instead, the partner developed an educational program titled “Making
Parenting a Pleasure” that was translated for Ukrainian service providers to be
disseminated throughout Ukraine’s centers for social services.

Grant Program: The Families for Children program supported numerous child-welfare
activities through a well-managed and effective grant program. The grant selection
process followed clear selection criteria and formal procedures to ensure fairness and
transparency in the selection process. As part of the grant process, the implementing
partner trained grant recipients to collect and submit financial and results data using
standard reporting forms designed to reduce submission errors. The partner also
maintained a comprehensive database that tracked grant financial data and reported
results.

For FYs 2007 and 2008, the program completed or substantially completed eight of nine
grant program activities. Accomplishments include the award of more than $290,000 for
22 grants in FY 2007 and 19 grants from October 2007 to March 2008 in three program
areas: direct services, public awareness campaigns, and training. Grants awarded
during this period included the following:

    •   An award of $5,500 to renovate a bathroom for a family with eight foster
        children in Kyivo-Svyatoshinskii, Ukraine

   •    An award of $5,500 for a rehabilitative summer camp for 130 older at-risk
        children in Brovarsky, Ukraine

    •   An award of more than $8,550 for a relief nursery at the Center for Social
        Services in Gorlovka, Ukraine




Photographs showing before-and-after conditions at a grant-supported relief nursery in Gorlovka,
Ukraine. Photographs provided by the USAID implementing partner.




                                                                                              6
Other Activities: Other activities included collaborating with donors and partners and
developing an exit strategy to help ensure the sustainability of program activities. The
program completed or substantially completed 16 of 17 activities. It did not complete its
activity related to locally sustainable mechanisms. The implementing partner intended to
use subgranting to develop locally sustainable social service agencies by sharpening
their sustainability plans and strengthening their organizational capacities to manage,
raise funds, and advocate for the long term. However, the implementer chose to focus
on its strengths in training and technical assistance rather than its subgrantees’ plans to
create sustainability.

USAID/Ukraine Should Monitor
Program Outputs and Results
More Closely

 Summary: Federal regulations and USAID guidance require missions to monitor the
 quality and timeliness of outputs produced by implementing partners as described in
 grant agreements, and to compare actual performance with planned results for grants
 and contracts. However, USAID/Ukraine did not closely monitor the program’s
 implementation to ensure that the grantee achieved the specific outputs described in
 the grant agreement and did not obtain data that compared expected and achieved
 results. These problems resulted from (1) lack of continuity by mission staff
 responsible for monitoring the project and (2) lack of mission guidance and
 management attention to the requirements for tracking outputs. Unless the mission
 closely monitors the status of outputs, projects will have an increased risk of failing to
 achieve their objectives.

According to USAID’s Automated Directives System 202.3.6, monitoring the quality and
timeliness of outputs produced by implementing partners is a major task of mission
personnel. Automated Directives System 202.3.6 further states that these outputs,
which are included in grant agreement program descriptions, are critical to achieving
results. According to Automated Directives System 303.2, mission cognizant technical
officers are responsible for monitoring and evaluating the recipient and its performance
during the award by:

   •   Maintaining contact, including site visits and liaison, with the recipient

   •   Reviewing and analyzing reports

   •   Verifying timely performance by the implementing partner and monitoring
       reporting requirements

   •   Ensuring compliance with the terms and conditions of the award

According to Europe and Eurasia Bureau Operating Policy 311, missions are required to
develop activity monitoring guidance to ensure that they compare actual performance
with planned results for grants and contracts. Furthermore, according to Section 226.51
of Title 22 of the U.S. Code of Federal Regulations, the implementing partner should
provide performance reports that generally contain a comparison of actual



                                                                                          7
accomplishments with the goals and objectives established for the period and, if
appropriate, reasons why established goals were not met.

In the program’s cooperative agreement, the implementing partner stated that the
monitoring and reporting process would depict discernable changes in target area data,
and that the program would issue reports that highlight progress toward achieving
objectives as given in the indicators and activities stated within the planning matrix. To
provide a framework for the results report, the partner developed a results matrix based
on the program objectives and indicators to measure its progress. The matrix included
both output and outcome (impact) indicators.

However, although the mission monitored the program’s overall progress and tracked
progress toward some indicators, USAID/Ukraine’s cognizant technical officers did not
monitor the Families for Children program to ensure that all of the specific cooperative
agreement outputs were met, that the implementing partner provided accurate data on
all output targets and actual achievements, and that the partner reported on all data
included in the performance monitoring plan.

No output targets established: According to the cooperative agreement, the
implementing partner was to report on progress toward achieving targets for the
indicators included in the planning matrix; these reports would meet the requirements in
the U.S. Code of Federal Regulations. However, the partner’s biannual reports focused
primarily on outputs achieved during the reporting period (e.g., level of effort) and
generally contained little information comparing planned activities to achievements.
Furthermore, the submitted planning matrix did not contain specific planned
achievements for each work period. As of June 2008, USAID and the implementing
partner were attempting to retroactively establish appropriate output targets for each
year of the project.

No data collected on program impact: According to the implementing partner’s
monitoring plan, the program would collect data related to numerous indicators designed
to measure outcomes—the overall program impact. Proposed indicators included the
following:

   •   Percentage of families in crisis receiving quality social services and
       support

   •   Percentage increase in alternate care placements

   •   Percentage of children placed into family-type care

   •   Percentage of population with improved attitudes toward adoption and
       foster care

Despite the implementing partner’s commitment to collect these data, the partner did not
develop baseline or incremental data related to these indicators. According to the
implementing partner, USAID was interested only in current numbers/results; therefore,
the partner did not develop data regarding the outcome measures. The current
cognizant technical officer confirmed that USAID/Ukraine had not requested these data.




                                                                                        8
No evaluation of progress toward cooperative agreement targets and objectives:
According to the cooperative agreement, the implementing partner established specific
performance targets in a number of areas, including the following:

   •   Double the number of children served who are at risk of falling out of
       family care in the target areas through family preservation services.

   •   Increase the number of sustainable foster-type homes by two in each
       region.

   •   Double the number of children per annum in target areas who are placed
       into Ukrainian adoptive families.

During project implementation, however, the implementing partner abandoned these
specific numerical targets and did not report on progress toward these objectives.
According to the implementing partner, these specific objectives were abandoned or not
tracked for a variety of reasons. For example, the government of Ukraine took on much
greater responsibility for providing support for foster homes, making it less important for
the program to work in this area. Also, Ukraine’s privacy laws make it difficult to keep
track of how many children were placed into adoptive families. However, although the
program continued to pursue its overall goal—developing a continuum of services for
family preservation—the changes to objectives and proposed targets were not discussed
or approved by the USAID cognizant technical officer, and USAID/Ukraine did not
develop new objectives against which program progress could be measured.

These monitoring problems occurred, in part, because USAID/Ukraine changed the
cognizant technical officer four times during the life of the project. These changes
reduced management continuity and weakened mission monitoring efforts. To some
extent, however, the monitoring problems reflect a lack of management oversight and
emphasis on program monitoring. For example, USAID/Ukraine did not develop mission
guidance regarding program monitoring and evaluation that required the comparison of
planned results with actual grant outputs and delineated clear responsibilities for the
collection of such data.

As noted in ADS 202.3.6, delays in completing outputs provide an early warning that
results may not be achieved as planned. Without consistent data regarding progress
toward annual output and outcome targets and project objectives, USAID/Ukraine was
unable to determine whether the program was developing as intended. Because
USAID/Ukraine did not closely monitor the status of outputs, the project had an
increased risk of failing to achieve its objectives. To correct this problem, this audit
makes the following recommendation:

       Recommendation No. 1:          We recommend that the Director,
       USAID/Ukraine develop a comprehensive mission order on activity
       monitoring that requires the periodic evaluation of planned and actual
       progress toward the goals, objectives, and stated outputs of grants and
       contracts.




                                                                                         9
EVALUATION OF
MANAGEMENT COMMENTS
In its written comments to the draft report, USAID/Ukraine officials concurred with the
audit recommendation and agreed to develop within 90 days a mission order on program
monitoring that more accurately reflects current reporting requirements, policies, and
regulatory changes. The proposed actions represent a management decision on the
recommendation.

USAID/Ukraine also provided numerous additional examples of monitoring activities that
had taken place during the program. In response, we have clarified in the report that the
mission monitored the program’s overall progress and tracked progress toward some
indicators. We believe that mission’s proposed actions will help to ensure that all
cooperative agreement outputs are met, that implementing partners provide accurate
data on all output targets and actual achievements, and that the partners report on all
data included in the performance monitoring plan.




                                                                                      10
                                                                            APPENDIX I




SCOPE AND METHODOLOGY
Scope
The Performance Audits Division conducted this performance audit in accordance with
generally accepted Government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. The audit objective was to determine whether
USAID’s Displaced Children and Orphans Fund activities in Ukraine are achieving their
intended results and to assess the program’s impact.

We selected the annual work plans for fiscal years (FYs) 2007 and 2008 and evaluated
progress toward all planned activities contained in these plans from October 1, 2006,
through June 30, 2008. The audit excluded some program activities that addressed
human immunodeficiency virus issues, as the Displaced Children and Orphans Fund did
not finance these activities.

In planning and performing the audit, we assessed management controls related to the
development, implementation, use, and management review of performance measures
and indicators.    Specifically, we reviewed (1) the mission’s current performance
management plan, (2) Agency and mission legal authorities related to performance
measures, and (3) the mission’s FY 2007 Federal Managers Financial Integrity Act
process and results.

We also reviewed the performance indicators for program activities as well as the
performance data collected and reported under these indicators. We conducted the
audit at USAID/Ukraine in Kiev and at various implementing partner site locations in
Ukraine from June 17 to July 3, 2008.

Methodology
To determine whether USAID/Ukraine’s Family for Children program activities were
achieving planned results, the audit team first met with and interviewed USAID/Ukraine
staff in the mission’s Office of Health and Social Transition to gain an understanding of
the program history and status. We reviewed relevant documentation such as the
cooperative agreements, mission correspondence, internal worksheets used to measure
results, semiannual progress reports, field trip reports, and grant agreement selection
and reporting documents. We also tested a judgmental sample of outputs under each
project and verified reported progress related to these outputs during site visits and
interviews with each implementing partner. Based on the collective results, we
determined the progress of each project toward the achievement of planned outputs.

To determine whether USAID/Ukraine’s Displaced Children and Orphans Fund activities
were achieving their planned outputs, we first compared the planned work outlined in the
implementing partner’s cooperative agreement with the work plans to ensure
consistency. We then reviewed the work accomplished as reported in the implementer’s


                                                                                      11
                                                                             APPENDIX I
reports and compared actual accomplishments to the specific outputs as defined in the
agreements and approved work plans. This comparison entailed examining supporting
records, including documented deliverables and the implementer’s progress reports, for
evidence that the activity had achieved intended results. Activities were judged to have
been substantially completed if they either were completed later than planned or were
subject to minor scope adjustments during implementation.

To assess the mission’s compliance with requirements to document program
performance, we reviewed correspondence, assessment reports, and other data
maintained by the mission. We also tested a judgmental sample of outputs under each
project and verified reported progress related to these outputs during site visits and
interviews with the implementing partner staff, local officials, and beneficiaries. Based
on the collective results, we determined the progress of each project toward the
achievement of planned outputs and the impact on overall objectives.

In addition, we reviewed applicable policies, procedures, and management controls
related to the management for results, including Automated Directives System chapters
202, 203, and 303, as well as Title 22 of the U.S. Code of Federal Regulations. We then
evaluated the mission’s compliance with relevant program management controls and
policies.

In assessing each project’s progress toward its overall objectives, we established a
materiality threshold of 85 percent. If a project’s work plan adequately reflected the
overall contract goals and the contractor had achieved at least 85 percent of its planned
outputs during the audit period, the project was judged to be making acceptable
progress toward its overall objectives.




                                                                                      12
                                                                           APPENDIX II




MANAGEMENT COMMENTS
DATE:                         October 20, 2008

TO:                           Steven H. Bernstein, Director, IG/A/PA
FROM:                         Sarah Wines, Acting Director /s/

SUBJECT:                      Audit of USAID/Ukraine's Displaced Children and
                              Orphans Fund Activities

REF:                          Audit Report Number 9-xxx-xx-xxx-P

This memorandum transmits the Mission’s response to the Regional Inspector General's
aft report on the audit of USAID/Ukraine’s Displaced Children and Orphans Fund
(DCOF) activity, the Families for Children (FCP) Project implemented by Holt
International.

The stated objective of this worldwide audit, as outlined in a Memorandum from Steven
Bernstein dated March 31, 2008, was to determine whether USAID's Displaced Children
and Orphans activity was implementing activities to ensure that intended results were
achieved. The audit also sought to examine what the impact of activities has been to
date.

The audit outlined two findings:

First, it determined that the Families for Children Project had completed as planned or
substantially completed over 90 percent of planned activities outlined in FY 2007 and
2008 work plans. Specifically, 29 of 32 planned activities were successfully completed
during FY 2007, and 37 of 40 planned activities for FY 2008 were successfully completed.
The mission is in agreement with this finding, emphasizing the important role that the
project has played in assisting the Ministry of Family, Youth and Sports to catalyze and
begin to operationalize child welfare reforms.

Second, the audit determined that USAID/Ukraine had not provided sufficient
management oversight or monitoring or program implementation, indicating that as a
result, USAID/Ukraine was unable to assess program progress annually or overall impact
at both national and local level. The report states that this was due to both frequent
changes in project management and lack of management attention to the requirements
for tracking outputs. The Mission wishes to point out that a Mission Order on Monitoring
(0100.3) had been in place since June 3, 1998. This MO outlined the responsibilities for
systematic and regular monitoring and review of activities. However, the Mission
acknowledges that frequent turnover of project managers during the first few years of the
project was not optimal. However, with a strong CTO in place since May 2007, a recently
finalized monitoring and evaluation framework completed, and ongoing Mission portfolio



                                                                                      13
                                                                            APPENDIX II


review processes in place, the Mission believes that it will be able, within the remaining
life of the project, to fully address audit comments.

The audit makes the following recommendation:

Recommendation No. 1:

We recommend that the Director, USAID/Ukraine, develop an updated
comprehensive Mission Order on activity monitoring that requires the periodic
evaluation of planned and actual progress towards the goals, objectives, and stated
outputs of grants and contracts.

The Mission agrees to the recommendation that it update its current Mission Order on
Activity Monitoring in order to reflect more accurately the new reporting framework in
which USAID is operating as well as to incorporate any regulatory changes and Mission
policies put in place since 1998. The Mission requests that it be given a ninety day
period within which to complete this revision. The Mission will also ensure broad
understanding of the revised Mission Order through wide participation of relevant staff in
the revision process, as well as presentations of the new requirements once the Mission
Order has been completed. As part of this process, the Mission will build on content
included in Attachment A, Mission Order 0100.3 on Activity Reporting, which is attached
for your reference.

The Mission acknowledges that due to frequent changes in CTOs during the first few
years of the project, the lack of comprehensive documentation available may appear to
indicate that CTOs may not have been fully compliant with ADS 202.3.6 in monitoring the
quality and timeliness of outputs produced by implementing partners. However, the
Mission would like to note that during the past fifteen months, since the current CTO
assumed management of the project, the CTO has made significant effort to ensure that
she is providing appropriate oversight of programs funded by USAID in compliance with
ADS 303.2 requirements to monitor the quality and timeliness of outputs produced by
implementing partners and ensure progress toward planned results. This can be seen
through the following illustrative documents:

       •   The attached e-mail chain (Attachment B) initiated in November 2007
           attempts to ensure that there is a valid monitoring and evaluation plan for the
           project. This e-mail chain references the 2007 portfolio review process and
           discussions with the then-CTO on progress against planned results and
           indicators. The CTO also references a Results Framework attached to the e-
           mail chain, indicating that the framework best represents the project's
           monitoring and evaluation plan. Finally, the CTO references the need for
           performance reports to outline progress towards the indicators and
           benchmarks included in the Program Description in line with Cooperative
           Agreement Section A.5.2, Reporting.

           The e-mail chain references discussions at the start of the project related to
           reporting requirements and format. A review of this discussion chain affirms
           that the CTO made visible efforts to put in place an appropriate system against
           which she could monitor progress.




                                                                                       14
                                                                              APPENDIX II


       •   The attached January 2008 portfolio review reporting document (Attachment
           C) articulates results statements for the five areas of focus outlined in the FCP
           Program Extension document dated May 2007. The May 2007 FCP Program
           Extension document, which was incorporated into the Cooperative Agreement
           as Attachment B, Program Description in Section III of Modification Number
           02, dated August 17, 2007, reflects results against which the CTO has
           regularly monitored progress.

       •   The attached draft Results Framework developed by the CTO in coordination
           with the implementing partner, dated March 31, 2008, (Attachment D) outlines
           project objectives, indicators, targets and accomplishments against targets for
           the life of the project, FY 2005 through FY 2008.

       •   The attached series of e-mails between the Program Coordination and
           Strategy Office (PCS) and the CTO outline a process of dialogue to finalize the
           project results framework and establish final FCP indicators and targets
           (Attachment E).

       •   The attached Results Framework dated September 1, 2008, represents the
           final agreed on monitoring and evaluation framework for the project
           (Attachment F).

Attached for your information also please find Portfolio Review Guidance for 2007 and
2008 (Attachment G) as illustration of a regularized Mission process for monitoring
performance and reviewing and reporting on progress toward planned results.

Based on the above, the Mission requests your agreement with our management
response as stated in this memorandum for the audit recommendation.




                                                                                         15
